E-Mail Address:
contact@cocklelegalbriefs.com

Lh
I
2311 Douglas Street COCKL E

Omaha, Nebraska 68102-1214 Legal Briefs

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-607
WOODCREST HOMES, INC.,
Petitioner,
v.
CAROUSEL FARMS METROPOLITAN DISTRICT,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2627 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 24th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . .
State of Nebraska * Lv OQudraw- ,
My Commission Expires Nov 24, 2020 .

Notary Public Affiant 39538

 
